NATIONAL CREDIT UNION ADMINISTRATION

       OFFICE OF INSPECTOR GENERAL




                   REVIEW OF NCUA’S
                DOCUMENT OF RESOLUTION
                  FOLLOW-UP PROCESS

                           Report #OIG-11-11

                           September 29, 2011




                           William A. DeSarno
                           Inspector General



Released by:                            Auditor-in-Charge:



James Hagen                            Allison D. Washington
Deputy Inspector General               Senior Auditor
                              TABLE OF CONTENTS


Section                                                           Page



          EXECUTIVE SUMMARY                                        1

          BACKGROUND                                               4

          OBJECTIVES, SCOPE AND METHODOLOGY                        6

          PRIOR AUDIT COVERAGE                                     6

          RESULTS IN DETAIL                                        9

             A. Document of Resolution Monitoring and Follow-up   10

             B. Document of Resolution Sampling Results           15

          APPENDIX

             A. NCUA Management Response                          22
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11


                                      EXECUTIVE SUMMARY
The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
conducted a self-initiated audit of NCUA’s Document of Resolution (DOR) follow-up
process. Our objectives for this review were to determine (1) the process for
resolution/closure of DORs; and (2) the effectiveness of the current resolution process.
To accomplish these objectives, we analyzed unresolved (open) and resolved (closed)
DOR items 1 as reported in NCUA’s DOR Report database as of December 31, 2010.
We also (1) judgmentally sampled from each of NCUA’s five regional offices ten credit
unions with unresolved DOR items; 2 (2) reviewed credit unions which NCUA closed
from 2008 through 2010, and that had outstanding DOR items at the time of closure; (3)
interviewed NCUA management and regional staff; and (4) reviewed NCUA national
and regional guidance, policies and procedures.

We determined that neither NCUA’s Office of Examination nor Insurance (E&I) nor the
five regional offices effectively monitored or followed up on unresolved DOR items.
Specifically, we found that E&I performed limited DOR monitoring and that monitoring in
each region varied based on their individual policy. Accordingly, NCUA is establishing a
uniform credit union supervision process for all regions. The National Supervision
Policy Manual (NSPM) 3 will replace the individual regional supervision manuals and
policies and will help improve the overall DOR follow-up process. However, under this
new policy it would be optional for examiners to require a written response to all DOR
items in CAMEL 2 credit unions 4 with unresolved DORs. Conversely, during recent OIG
material loss reviews (MLRs), we identified five credit unions that historically received
composite CAMEL 1 or 2 ratings but had repeat DOR items that examiners did not
properly follow up on through stronger supervisory actions, which we believe helped
contribute to the credit unions failure. In addition, after receiving a draft of this report,
E&I management amended the draft NSPM and will require a written response to the
examiner for all DOR items not completed within the prescribed timeframe, regardless
of the credit union’s composite CAMEL rating.

We found that of the 74 credit unions closed and/or merged from 2008 through 2010, 45
percent had been regularly rated a composite CAMEL 1 or 2. The problems were so
insurmountable that 18 of these credit unions closed or merged about a year after the
initial downgrade. We also found that for 14 of these credit unions examiners noted a
total of 55 unresolved DOR items during the last examinations where the credit union
received a composite CAMEL 1 or 2 rating. We believe NCUA examiners considered
these credit unions a low risk and therefore did not aggressively pursue timely

1
  For purposes of this report, the OIG considers unresolved DOR items as issues or problems repeated over several
examination contacts and/or not completed within the prescribed timeframe.
2
  We sampled 50 credit unions with unresolved DORs.
3
  As of the date of this report, the NSPM is draft form.
4
  The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset/Liability Management. The CAMEL ratings disclosed in this report
refer to the overall CAMEL composite rating examiners assign a credit union and not the individual component
ratings.




                                                        1
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

resolutions for the unresolved DOR items. Consequently, NCUA missed opportunities
to mitigate losses to the National Credit Union Share Insurance Fund (NCUSIF).

Furthermore, we determined that as of December 31, 2010, NCUA had over 26,000
unresolved DOR items. These DORs encompassed 63 percent of all federally insured
credit unions, of which 23 percent had unresolved DOR items related to management
issues which were cited as a cause of credit union failures in every OIG MLR issued to
date. We also determined that as of December 31, 2010, examiners reduced identified
areas of unacceptable risk by resolving over 106,000 DOR items. 5 Moreover,
examiners resolved over 91,000 (86 percent) of these DORs in two years or less.

In the November 2010, OIG Capping Report on Material Loss Reviews (“Capping
Report”), 6 we stated that had examiners acted more aggressively in their supervision
actions, the looming safety and soundness concerns could have been identified sooner
and the eventual losses to the NCUSIF could have been stopped or mitigated. We
reported in the Capping Report and determined again during this review that examiners
did not take timely corrective actions on DOR items or elevate the supervisory
response.

Given the results of our review, viewed in tandem with the findings set forth in our
Capping Report, we believe opportunities continue to exist for improvement of the DOR
monitoring and follow-up processes.

To ensure future DORs are properly monitored and addressed in a timely manner, we
recommend that NCUA management:
      1. Develop a standardized DOR monitoring process requiring E&I and the regions
         to generate and analyze DOR database reports on a regularly defined basis
         including, but not limited to the DOR Aging Months of Unresolved Report.

      2. Require written responses from credit union management, regardless of the
         composite CAMEL rating, for all DOR items not resolved within the established
         timeframes.

      3. Ensure regional staff takes stronger supervisory actions when a credit union fails
         to correct DOR items.

We also suggest NCUA management consider establishing specific time limits for
examiners to resolve and close DOR items to help ensure DORs do not remain open
indefinitely.

NCUA management agreed with our findings and recommendations, and has already or
is in the process of taking corrective action. Specifically, in conjunction with the
additional guidance incorporated into the current draft of the National Supervision Policy

5
    Examiners resolved these DOR items from 2005 through 2010.
6
    http://www.ncua.gov/Resources/OIG/Files/Reports/2010/OIG-10-20OIGCappingReportMLRs_11.23.10.pdf



                                                      2
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

Manual (NSPM), management stated that NCUA’s Office of Examination and Insurance
and Office of the Chief Information Officer will work together to improve the DOR
reports, thereby strengthening the regions ongoing monitoring and reporting of DOR
items. As previously stated, management revised the draft NSPM and plans to require
written responses for all DORs not completed within the prescribed timeframe,
regardless of the credit union’s composite CAMEL rating. Moreover, management plans
to provide training on the proper use of the DOR during NCUA’s 2012 National
Conference. In addition, management stated the current draft of the NSPM requires
more stringent administrative actions when credit unions do not resolve the DORs with
the agreed timeframe, and when administrative action is not taken, the examiner must
document the reason for not taking more stringent action. Furthermore, management
stated they would continue to stress the importance of taking stronger supervisory
actions as needed to ensure the safety of the National Credit Union Share Insurance
Fund. Finally, management plans to implement the NSPM following the 2012 National
Conference.

In regards to our suggestion, NCUA management does not believe it is feasible to
establish specific time limits for examiners to resolve and close DOR items given the
innumerable circumstances examiners must consider when determining the appropriate
needed action. The OIG defers to management‘s decision to continue to allow
examiners to exercise judgment when determining the most effective corrective action
for issues identified during the examination. However, we believe management should
continue to look for ways to reduce the time to close DORs during any future reviews or
changes to the program. We have included management‘s comments in their entirety in
Appendix A.

We appreciate the courtesies and cooperation NCUA management and staff provided to
us during this review.




                                               3
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11


BACKGROUND

Document of Resolution

Examiners use the Document of Resolution (DOR) to outline plans and agreements
reached with credit union officials to reduce identified areas of unacceptable risk. The
DOR identifies persons responsible and timeframes for correction. 7 A DOR may
contain one or more DOR action items, which (1) is the corrective action credit union
management needs to perform and (2) address the examiner’s concerns related to a
specific risk area and risk factor. According to E&I management, for some of the
unresolved DOR items, the specific corrective action may change over examinations
depending on changing circumstances and/or the improvements credit union
management made to address the original DOR issues. Furthermore, E&I management
indicated that although the original corrective action may not be the same, the DOR
item retains the original date the examiner identified the problem to maintain a history of
recurring problems related to the same risk area and risk factor.

Conversely, recent NCUA Office of Inspector General (OIG) material loss reviews
(MLRs) indicated that credit unions had not timely addressed requirements NCUA
examiners set forth in DORs to correct significant deficiencies. For example, in five of
ten MLRs 8 conducted by the OIG, we found instances where the same DOR issues
were repeated over several examination contacts at the same credit union. We also
observed during our MLR work that unaddressed DOR requirements were relevant to
the issue(s) that led to the failure of credit unions. For instance, we determined that
Ensign Federal Credit Union failed because its Board of Directors and management did
not implement appropriate risk management practices related to concentration risk, a
repeated DOR item. In addition, examiners issued repeated DORs related to High
Desert Federal Credit Union’s construction loan portfolio. A high concentration of real
estate construction loans coupled with the dramatic decline in nationwide real estate
values caused by the credit crisis contributed to High Desert’s failure.

Document of Resolution Reports Database 9

The DOR database 10 provides a means to monitor resolution items identified during
credit union examinations and allows for the extraction of a summary report and five
detail reports. The DOR reports gather data from NCUA’s Automated Integrated
Regulatory Examination Software (AIRES) examination uploads to identify outstanding
problems and monitor the resolution process. The reports are updated daily with data
from the most recent AIRES report uploads and changes to other data sources may
also result in updated fields in the DOR reports. The reports monitor outstanding

7
  NCUA Examiner’s Guide, Chapter 20, page 20-4.
8
  The ten credit unions were Ensign, High Desert, Center Valley, New London and St. Paul Federal Credit Unions,
and Beehive, Cal State 9, Clearstar Financial, Eastern Financial Florida and Norlarco Credit Unions. These credit
unions closed from 2008 through 2010 and resulted in MLRs.
9
  Source: NCUA Central Report Service Users Guide Accessing Online Reports, Office of Examination and Insurance
dated March 24, 2010, pgs 17-22 and Appendix C.
10
   NCUA established the DOR database and the corresponding reports in 2008.



                                                       4
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

resolution items for each NCUA regional office, and within each region, for each
Supervisory examiner (SE) group, district, or state and on a national level. The benefits
of the DOR reports include allowing for quality control of problem resolution and
gathering data to identify concentrations of risk for workload, resource, and dollar
budgeting.

Specifically, NCUA staff can use the:

   •   Summary of DOR Items Report to focus attention upon those credit unions with
       the greatest number of unresolved problems and to help prioritize supervision
       plans. This report lists each risk area and specific risk factors for all unresolved
       DOR items.

   •   DOR Aging Months of Unresolved Report to identify outstanding plans for
       corrective action and to identify DORs in specific risk areas or factors. This
       report displays unresolved risk areas, risk factors, and plans for corrective action
       as well as the number of months since the corrective action was first identified.

   •   DOR Items with Plans for Corrective Action Report to filter and prioritize areas of
       concern. This report displays either resolved or unresolved DOR items and
       provides detailed plans for corrective action for each DOR item. The report
       allows the user to select a specific risk area or risk factor.

   •   DOR Resolved Number of Months Report to review the credit union's problem
       resolution history to determine management's competency and the probability
       that similar problems may arise in the future.

   •   DOR by Date Range Report to determine what issues have arisen during a
       certain time period. This report displays either resolved or unresolved DORs
       permitting the user to see only those problem areas identified within a user-
       specified time period.

   •   Projected Number of Months to Resolve Report to identify credit unions where
       problem resolution is expected to take a significant length of time. Examiners can
       schedule follow-up contacts or phone calls based on the DOR due dates.

NCUA Examination Process

NCUA uses a total analysis process that includes: collecting, reviewing, and interpreting
data; reaching conclusions; making recommendations; and developing action plans.
The objectives of the total analysis process include evaluating CAMEL components,
and reviewing qualitative and quantitative measures.

NCUA uses the CAMEL Rating System in examining credit unions to provide an
accurate and consistent assessment of a credit union's financial condition and
operations. The CAMEL rating includes consideration of key ratios, supporting ratios,


                                               5
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

and trends. Generally, the examiner uses the key ratios to evaluate and appraise the
credit union’s overall financial condition. During an examination, examiners assign a
CAMEL rating, which completes the examination process.

Examiner judgment affects the overall analytical process. An examiner’s review of data
includes structural analysis, 11 trend analysis, 12 reasonableness analysis, 13 variable data
analysis, 14 and qualitative data analysis. 15 Numerous ratios measuring a variety of
credit union functions provide the basis for analysis. Examiners must understand these
ratios both individually and as a group because some individual ratios may not provide
an accurate picture without a review of the related trends.

Financial indicators such as adverse trends, unusual growth patterns, or concentration
activities can serve as triggers of changing risk and possible causes for future
problems. NCUA also instructs examiners to look behind the numbers to determine the
significance of the supporting ratios and trends. Furthermore, NCUA requires
examiners to determine whether material negative trends exist; ascertain the action
needed to reverse unfavorable trends; and formulate, with credit union management,
recommendations and plans to ensure implementation of these actions.

According to NCUA training guidance, the greater the credit union’s problems, usually
reflected by CAMEL codes, the more extensive, detailed, and specific the DOR will be.
Similarly, the less sophisticated the management team, the more detailed the DOR will
be. Examiners tailor the DOR to the credit union’s types of weaknesses and the
competence of the management team.

OBJECTIVE, SCOPE AND METHODOLOGY

The objectives of this audit were to determine (1) the process for resolution/closure of
DORs; and (2) the effectiveness of the current resolution process. To accomplish our
objectives, we (1) analyzed unresolved (open) and resolved (closed) DOR items 16
contained in NCUA’s DOR Report database as of December 31, 2010, and (2)
judgmentally sampled from each of NCUA’s five regional offices ten credit unions with
unresolved DOR items. For the unresolved DOR items, we eliminated DORs with
completion dates later than December 31, 2010. 17 Our scope included credit unions

11
   Structural analysis includes the review of the component parts of a financial statement in relation to the complete
financial statement.
12
   Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
13
   As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance ratios.
14
   Examiners can often analyze an examination area in many different ways. NCUA’s total analysis process enables
examiners to look beyond the "static" balance sheet figures to assess the financial condition, quality of service, and
risk potential.
15
   Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the credit union's current condition, and its future. Qualitative
data analysis may include assessing lending policies and practices, internal controls, attitude and ability of the
officials, risk measurement tools, risk management, and economic conditions.
16
   We queried unresolved and resolved DOR items from active credit unions.
17
    We pulled the unresolved DOR reports after December 31, 2010, and captured DOR items not resolved by the
assigned completion date. Unresolved DOR items include DOR issues repeated or recurring over several
examination contacts and/or not completed by the assigned due date.



                                                          6
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

closed from 2008 through 2010 with outstanding DOR items at the time of closure.
Further, we reviewed and analyzed NCUA examination and supervision work papers,
examination reports, and related correspondence for the selected credit unions. Finally,
we reviewed NCUA national and regional guidance, policies and procedures, and
interviewed NCUA management and regional staff.

We used computer-processed data from NCUA’s AIRES and Credit Union Online
systems. We did not the test controls over these systems. However, we relied on our
analysis of information from management reports, correspondence files, and interviews
to corroborate data obtained from these systems to support our audit conclusions.

We conducted this performance audit from February 2011 through September 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials and incorporated their
suggested changes where appropriate.

PRIOR AUDIT COVERAGE

We identified one NCUA OIG audit conducted within the past 5 years related to the
subject of this audit.

OIG Capping Report on Material Loss Reviews, Report Number OIG-10-20, dated
November 23, 2010 (“Capping Report”). 18

In this report, the NCUA OIG identified several shortcomings related to NCUA and State
Supervisory Authority (SSA) supervision efforts, including examiner deficiencies in
quality control efforts and examination procedures. Specifically, the OIG stated that had
examiners acted more aggressively in their supervision actions, the looming safety and
soundness concerns could have been identified sooner and the eventual losses to the
NCUSIF could have been stopped or mitigated. The OIG recommended that NCUA
management determine whether credit unions with repeat DORs have taken
appropriate corrective action. In the event that corrective action had not been taken, the
OIG recommended that examiners should be instructed to elevate the supervisory
response, including the taking of enforcement action when necessary. NCUA
management agreed with the recommendation, indicating the identification of repeat
DOR items and appropriate examiner response was already part of the regional quality
control review process and would continue to be emphasized in the new national
supervision manual. Management also indicated they were currently evaluating other
methods to better capture repeat DOR items.

18
     http://www.ncua.gov/Resources/OIG/Files/Reports/2010/OIG-10-20OIGCappingReportMLRs_11.23.10.pdf



                                                      7
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11



We also identified two additional reviews NCUA OIG completed within the past 5 years
related to the subject of this audit:

NCUA’s Risk-Focused Examinations Tracking Identified Documents of
Resolution (DOR) Survey Report, Report Number OIG-07-06, dated July 10, 2007. 19

NCUA’s Risk-Focused Examination Process for Federal Credit Unions, Report Number
OIG-06-08, dated October 16, 2006. 20




19
     http://www.ncua.gov/Resources/OIG/Files/Reports/2007/OIG-07-06TrackingDORsSurveyReport.pdf
20
     http://www.ncua.gov/Resources/OIG/Files/Reports/2006/OIG0608.pdf



                                                       8
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11


RESULTS IN DETAIL

We determined NCUA’s DOR follow-up process needs improvement. Specifically, we
determined that neither NCUA’s Office of Examination & Insurance (E&I) nor the five
regional offices effectively monitored or followed up on unresolved DOR items. In
addition, we determined that E&I staff performed limited DOR monitoring and that
monitoring at each regional office varied based on their individual policy. We also
learned NCUA is establishing a uniform credit union supervision process for all regions.
The National Supervision Policy Manual (NSPM) will replace the individual regional
supervision manuals and policies and help improve the overall DOR follow-up process.
However, under this new policy for composite CAMEL 2 credit unions with unresolved
DOR items, it would be optional for examiners to require that management provide a
written response to all DOR items. Conversely, during OIG MLRs we found that five of
ten credit unions were both routinely rated composite CAMEL 1 or 2 and had repeat
DOR items that were not properly followed up on by examiners through stronger
supervisory actions. The result of the non-action related to these repeat issues helped
contribute to the credit unions failure. After we provided NCUA management with a
draft of this report, E&I management amended the draft NSPM and plans to require
written responses for all DORs not completed within the prescribed timeframe,
regardless of the credit union’s composite CAMEL rating.

Additionally, we found that of the 74 credit unions closed and/or merged from 2008
through 2010, 45 percent historically received composite CAMEL 1 or 2 ratings. The
problems were so insurmountable that 18 of these credit unions closed or merged
approximately one year after the initial downgrade. We also found that for 14 of these
credit unions, examiners noted a total of 55 unresolved DOR items during the last
examinations where the credit union regularly received a composite CAMEL 1 or 2
rating. We believe NCUA missed opportunities to mitigate losses to the NCUSIF.

As of December 31, 2010, NCUA had over 26,000 unresolved DOR items. These DOR
items encompassed 63 percent of all federally insured credit unions, of which 23
percent had unresolved DOR items related to management issues which were cited as
a cause of credit union failures in OIG MLRs. Regional management stated that actions
to resolve outstanding DORs included downgrading a credit union’s CAMEL rating and
taking stronger supervisory actions; however, we determined examiners did not take
timely corrective actions such as downgrading a credit union’s CAMEL rating or taking
stronger supervisory actions. Conversely, we further determined that as of
December 31, 2010, the DOR database showed that examiners had resolved over
106,000 DOR items; thereby reducing identified areas of unacceptable risk. The
average time to resolve these DOR items was 13 months.

Given the results of our review, viewed in tandem with the findings set forth in our
Capping Report, we believe opportunities continue to exist for improvement of the DOR
monitoring and follow-up processes.




                                               9
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

A. Document of Resolution Monitoring and Follow-up

 NCUA’s DOR                   We determined NCUA’s DOR monitoring and follow-up
 Monitoring and               processes need improvement. Specifically, we determined
 Follow-up Processes          that during 2010, E&I staff performed limited DOR
 Need Improvement             monitoring through a newly implemented national quality
                              control review (QCR) process. In addition, E&I
                              management stated that the regions were responsible for
ensuring unresolved DOR items were addressed. We found that DOR monitoring and
follow-up varied among the regions, with each region office relying on the examiners
and/or their supervisors to ensure unresolved DORs were properly addressed. As a
result, there is no consistency in the agency with how to monitor, follow up on or resolve
open DOR items. This has the potential to lead to additional failures for credit unions
that do not act on critical recommendations related to the safety and soundness of the
credit unions.

DOR Monitoring

In addition to the regional QCRs, E&I management implemented a new national
examination and supervision QCR process in June 2009. The new QCR process also
superseded E&I’s previous national QCR process. Under this new process, E&I staff
periodically sample examination and supervision reports from each region and review
the most recent examination report, the administrative record, and the risk profile of
each selected credit union. In addition, the reviewer determines (1) the frequency of
repeat DOR items, (2) if effective and timely resolution has occurred, and (3) whether a
weakness existed in the construction of the DOR such as lack of measureable results,
inappropriate completion time frames, etc. E&I staff began this new QCR process in
May 2010 and performed 100 QCRs during 2010. E&I staff based the sample on
emerging trends, identified concentrations, credit risk, risk to net worth, and lessons
learned from OIG MLRs.

The E&I’s QCR process focused on eight assessment areas to determine whether
examiners:

       1. Addressed negative trends and included effective recommendations to
          resolve significant problems within acceptable timeframes.

       2. Completed the exam utilizing the proper use of AIRES and the DOR module
          and included plans for timely resolution of DOR items.

       3. Reviewed new programs, services, and/or significant concentrations.

       4. Documented supervision plans consistent with the risk profile, Financial
          Performance Report (FPR), and risk report data.




                                              10
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

       5. Used appropriate administrative action commensurate with the risk profile and
          CAMEL code.

   In addition, the E&I QCR process ensures examination reports:

       6. Identify a weakness where one or more CAMEL component ratings should
          have been rated differently or were inconsistent with related risk ratings.

       7. Identify a weakness where national examination expectations and standards
          were not adequately met including DOR development and follow-up,
          administrative record documentation, and scoping development or
          documentation weaknesses.

       8. Identify a weakness where one or more risk ratings should have been rated
          differently including reconciling with CAMEL or risk areas not identified,
          discussed or factored into the rating.

While E&I’s preliminary results showed that overall 82 percent of the reviewed areas
satisfied national expectations and reflected positively on NCUA’s examination and
supervision program, E&I management identified areas for improvement within the
program. Specifically, E&I management determined that 25 percent of the reports
reviewed contained a weakness where examiners did not adequately meet national
examination expectations and standards. This included DOR development and follow-
up, administrative record documentation, and scoping development or documentation.
Although E&I management indicated that the vast majority of its findings did not identify
a systemic weakness, officials stated that the results of the QCR process reflected the
need to continue to improve national guidance and expectations.

We determined that the process for DOR monitoring and follow-up was not consistent
among the regional offices. Specifically, we found that two of the five regional offices
used monthly reports to monitor unresolved DOR items. In one of these regional
offices, a monthly management report highlighted outstanding DOR items for record
keeping issues. In another regional office, regional officials provided Supervisory
Examiners with a monthly report detailing the outstanding DOR items with instructions
to have their staff review all outstanding problem areas and note whether examiners
corrected the issues or the issues were no longer applicable. According to regional
management, this was completed in 2010 and again during the first quarter of 2011. In
addition, two other regional offices used the Division of Supervision (DOS) QCR
process and/or the annual Supervisory Examiner evaluations of selected examinations
to review unresolved DOR items. Since both of these processes involve only a
sampling of examinations, neither one captures all of the unresolved DOR items.
Finally, the remaining Region depended on the examiners to conduct the overall
tracking and monitoring of unresolved DOR items.




                                              11
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

DOR Follow-up

According to E&I management, each regional office is responsible for ensuring
unresolved issues are addressed. However, we found DOR follow-up was not
consistent among the regions. We determine DOR follow-up methods at each of the
five regional offices included:

     •   The Region I DOS director reminding Supervisory Examiners, during a 2010
         presentation, of the need to regularly review reports in the DOR database to
         ascertain the level of problem resolution.

     •   Region II tracking and requiring follow up on credit unions with a composite
         CAMEL code 3, 4, and 5 rating, and credit unions with administrative actions
         such as Preliminary Warning Letters and Letters of Understanding and
         Agreement.

     •   Region III relying on the examiners and Supervisory Examiners to take proper
         follow-up actions.

     •   Region IV using DOS QCRs and/or the Supervisory Examiner evaluations to
         identify unresolved DOR items requiring further administrative action.

     •   Region V advising staff through DOS QCRs and/or the Supervisory Examiner
         evaluations to follow up on repeat DOR items and implement increasingly more
         stringent administrative remedies.
According to the NCUA Examiner’s Guide, 21 when credit union management does not
agree with the DOR, offer alternate plans or fails to meet the timeframe, the examiner
should discuss the course of action with the supervisory examiner following regional
policy. The examiner may consider drafting a Regional Director Letter 22 urging credit
union officials to formulate an acceptable plan that recognizes and resolves the
problems. However, when the overall risk to the credit union so warrants, the examiner
and supervisory examiner may find it necessary to recommend taking administrative
action, 23 again following regional policy. 24

Additionally, we found the NCUA Examiner’s Guide and current regional manuals and
guidelines only require follow-up on credit unions rated composite CAMEL 3, 4, or 5.
However, we learned that the NSPM, currently in draft form, will eventually supplant the

21
   NCUA Examiner’s Guide, Chapter 20, page 20-5.
22
   Regions attempt to correct noted problems by sending Regional Director Letters to the credit union in question. In
severe cases, the letters indicate that unless the credit union takes corrective action or makes reasonable progress,
NCUA may pursue administrative action.
23
   Administrative actions represent the strongest supervisory tool available to NCUA. The actions generally used to
correct problems and to ensure the continued existence of credit unions include: Cease and Desist; Civil Money
Penalties; Removal of Officials; Prohibition; Conservatorship; Termination of Share Insurance (limited to federally
insured state-chartered credit unions); Liquidation; and revocation of Charter.
24
   NCUA Examiner’s Guide, Chapter 20, pages 20-4 & 20-5.



                                                         12
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

individual regional manuals and guidelines. We believe this policy will also help
improve the DOR follow-up process and establish a uniform credit union supervision
process for all regions. While the NSPM states that for composite CAMEL 2 credit
unions with ongoing unresolved DORs field staff should consider whether the CAMEL
rating is correct. If the credit union does warrant a composite CAMEL 2 rating, it would
nevertheless be optional for examiners to require management at these credit unions to
submit written responses. 25 The NSPM states written responses will be required for
credit unions rated a composite CAMEL 3, 4, or 5 for all DORs issued. It should be
noted that after we provided NCUA E&I management with a draft of this report, they
amended the draft NSPM and plan to require written responses for DORs not resolved
within the established timeframe from credit union management regardless of the
composite CAMEL rating.

Credit Union Closures and CAMEL Ratings

We determined that from 2008 through 2010, 74 credit union closures and/or mergers
resulted in approximately $649 million in losses to the NCUSIF. 26 Of these, 33 or 45
percent historically received a composite CAMEL 1 or 2 rating and resulted in $559
million in losses to the NCUSIF. All but one of these credit unions closed or merged
within two years of being downgraded to a composite CAMEL 3, 4, or 5 rating. 27
Additionally, the problems were so insurmountable that 18 of the 33 credit unions closed
or merged approximately one year after the initial composite CAMEL downgrade.
Furthermore, in 14 of the 33 closed credit unions, examiners noted a total of 55
unresolved DOR items during the last examinations where the credit union received a
composite CAMEL 1 or 2 rating. The composite CAMEL 1 or 2 rating were assigned
immediately prior to the examination where the CAMEL ratings were lowered.
Moreover, examiners regularly rated eight of the ten credit unions, 28 which were the
subject of recent OIG MLRs, composite CAMEL 1 or 2 prior to the credit union failure.
We believe that since these credit unions were rated a composite CAMEL 1 or 2, NCUA
examiners considered them a low risk and therefore did not aggressively pursue timely
resolutions for the unresolved DOR items. In addition, for composite CAMEL 1 and 2
credit unions with unresolved DORs, NCUA policy did not require credit union
management provide written responses for the DORs not completed within the assigned
timeframe. Consequently, the examiners missed opportunities to mitigate losses to the
NCUSIF.




25
   Draft NSPM Chapter 1, section 6A.
26
   Two of the 74 credit union closures resulted in a gain to the NCUSIF.
27
   Some credit unions were downgraded to composite CAMEL 3 then 4 then 5 and some went straight from CAMEL 1
or 2 to 4 or 5. The one exception went from a composite CAMEL 2 to merger.
28
   Ensign, High Desert, Center Valley, New London and St. Paul Federal Credit Unions and Beehive, Cal State 9,
Clearstar Financial Credit Unions were regularly rated composite CAMEL 1 or 2 prior to the failures. Eastern
Financial Florida Credit Union and Norlarco Credit Union completed the list of ten credit unions closed from 2008
through 2010 that resulted in MLRs.



                                                       13
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

Recommendations

We recommend NCUA management:


   1. Develop a standardized DOR monitoring process requiring E&I and the regions
      to generate and analyze DOR database reports on a regularly defined basis
      including, but not limited to the DOR Aging Months of Unresolved Report.


   2. Require written responses from credit union management, regardless of the
      composite CAMEL rating, for all DOR items not resolved within the established
      timeframes.

Management Response

Management agreed with the recommendations and has taken corrective action.
Specifically, NCUA incorporated additional guidance into the current draft of the
National Supervision Policy Manual (NSPM), which will replace regional policies with
consolidated national guidance. In addition to the actions already taken, management
plans to take the following corrective action. For recommendation 1, management
stated that E&I and NCUA’s Office of the Chief Information Officer will work together to
improve the DOR reports thereby strengthening the regions ongoing monitoring and
reporting of DOR items. In addition, management plans to provide training on the proper
use of the DOR during NCUA’s 2012 National Conference. For Recommendation 2,
management revised the draft NSPM and plans to require written responses for all
DORs not completed within the prescribed timeframe, regardless of the credit union’s
composite CAMEL rating. Furthermore, management expects to implement the NSPM
after the 2012 National Conference.

OIG Response

We concur with the actions taken to date and the actions planned by management.




                                              14
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

B. Document of Resolution Sampling Results

 NCUA’s                 We determined that as of December 31, 2010, NCUA had over
 Unresolved DOR         26,000 unresolved DOR items at 63 percent of all federally
 Process Needs          insured credit unions (FICUs). Fifty-seven percent of these
 Improvement            credit unions received composite CAMEL 2 ratings. We also
                        determined that 23 percent of the credit unions with unresolved
                        DORs had unresolved DOR items related to management,
which was one of the causes cited in the OIG’s Capping Report as leading to recent
credit union failures. We further determined that examiners did not take timely
corrective actions such as downgrading a credit union’ s composite CAMEL rating or
taking stronger supervisory actions even though regional management stated that
actions to resolve outstanding DORs included downgrading a credit union’s CAMEL
rating and taking stronger supervisory actions. Finally, we also determined that as of
December 31, 2010, the DOR database showed that examiners had resolved over
106,000 DOR items.

Unresolved DOR Results

As of December 31, 2010, we determined NCUA had over 26,000 unresolved DOR
items at 4,653 of the 7,339 FICUs. Therefore approximately 63 percent of the credit
unions had unresolved DOR items. Of this 63 percent, over half (57 percent) of these
credit unions received composite CAMEL 2 ratings during their last examination. See
Table 1 (below) for the number of credit unions with unresolved DOR items by
composite CAMEL rating:

                                                                          Percentage
                                       Region
   COMPOSITE                                                                of DOR
                                                                  Total
     CAMEL                                                                 Items by
                       1        2         3         4       5               CAMEL
         1              41       42        52         77     19     231         4.96%
         2             575      539       612        688    239   2,653       57.02%
         3             266      363       280        391    172   1,472       31.64%
         4              49       62        54         68     45     278         5.97%
         5               1        6         2          4      6      19         0.41%
             Total     932    1,012     1,000      1,228    481   4,653         100%
  Table 1




                                              15
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

While Table 1 shows over half of the unresolved DOR items were at credit unions with
composite CAMEL 2 ratings, it should be noted that NCUA examiners rated over fifty
percent of the credit unions as composite CAMEL 2. This is significant because, as
previously stated in this report, we believe examiners considered composite CAMEL 2
credit unions a lower risk and did not aggressively pursue timely resolutions for
unresolved DOR items. Furthermore, NCUA Examiner’s Guide and the current regional
manuals and guidelines only require follow-up on credit unions rated composite CAMEL
3, 4, or 5. Additionally, since over 57 percent of the unresolved DOR items were at
credit unions with a composite CAMEL 2 rating, we believe opportunities exist to
mitigate losses to the NCUSIF.

Table 2 (below) shows the number of FICUs by composite CAMEL rating:

                                                                      Percentage
                            COMPOSITE             Number of
                                                                       of Total
                              CAMEL                 FICUs
                                                                         FICU
                                   1                      1,079           14.62%
                                   2                      4,141           56.11%
                                   3                      1,793           24.30%
                                   4                        349            4.73%
                                   5                         16            0.22%
                            Not Rated                            2        0.03%
                                                                 29
                              Total FICUs                7,380          100.00%
                        Table 2

Unresolved Management DORs

We found that 23 percent of credit unions with unresolved DORs had DOR items related
to management risk. 30 Of these, the "Management Understanding/Response” and
“Management Practices” risk factors accounted for 88 percent of the management-
related DOR issues reported. We believe this is noteworthy because ineffective
management was one of the causes of credit union failures cited in NCUA’s Post
Mortem Capping Report, as well as the OIG’s Capping Report and MLRs.




29
 This was number of credit unions as of November 30, 2010, which fluctuates on a regular basis.
30
 The management risk factors were Board of Director Oversight, Management, Management Practices,
Management Understanding/Response and Supervisory Committee.



                                                    16
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

Chart 1 below shows the unresolved DOR items by management risk factor:

                        Unresolved DOR Items by Management Risk Factor

                                                                      BOD Oversight
                                     5% 3% 4%


                                                                      Management
                                                      24%

                                                                      Management Practice


                                                                      Management
                            64%                                       Understanding/Response

                                                                      Supervisory Committee



             Chart 1

Lack of Timely Corrective Actions

We found that the establishment of timeframes for DOR completion was left to the
examiner's judgment, and that examiners took into account the credit union's CAMEL
rating and assets. Furthermore, neither E&I management nor regional officials had
established specific completion timeframes for resolution of non-regulatory violations. 31
We also found examiners did not take timely corrective actions. Specifically, there were
331 unresolved DOR items at the 50 credit unions sampled. While 41 of 50 credit
unions had unresolved DOR items, NCUA only took stronger supervisory actions 32 at
eight credit unions and lowered composite CAMEL ratings at twelve credit unions. See
Table 3 (below) for the details:

                                                                             Number of
                              Stronger           CAMEL            Unresolved
              Region                                                         Unresolved
                              Actions            Lowered            DORs
                                                                             DOR Items
                              Y        N         Y          N      Y     N
                1             1        9         2          8      9      1      95
                2             1        9         2          8      7      3      25
                3             2        8         5          5      7      3     101
                4             2        8         1          9      10     0      67
                5             2        8         2          8      8      2      43
              Total           8        42        12         38     41     9     331
            Table 3
31
  Only regulatory issues, such as Bank Secrecy Act violations, had specific timeframes for compliance.
32
  Stronger supervisory actions include items such as Net Worth Restoration Plan, Regional Director Letter,
Preliminary Warning Letter, and Letter of Understanding and Agreement.



                                                        17
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

DOR Item Aging

As previously mentioned, NCUA had over 26,000 unresolved DOR items. Of these, 57
were over 10 years old; 776 were 5-10 years old; 2,305 were 3-5 years old; 3,098 were
2-3 years old, 9,055 were 1-2 years old, and 10,870 were less than one year old.
Based on the documentation received from regional management, we determined that
42 of the 57 or 74 percent of unresolved DOR items over 10 years old were still valid.
Planned corrective actions by regional management to resolve outstanding DORs
include:

   •   Reviewing the unresolved DOR items and downgrading the composite CAMEL
       rating and/or taking stronger administrative actions.

   •   Reminding the examiners to follow up on unresolved DORs.

   •   Considering the routine dissemination of DORs summary to the Supervisory
       Examiners.

Table 4 (below) shows the number of credit unions with unresolved DOR items by
Region:

                                                                         Total
                                           Region
             Age                                                      Unresolved
                          1         2         3         4       5     DOR Items
          >10 years       10        11        18        13      5          57
         5-10 years      139       216       115       265      41        776
          3-5 years      361       787       329       676     152       2,305
          2-3 years      716       905       584       621     272       3,098
          1-2 years     2,052     2,718     1,795     1,655    835       9,055
           <1 years     2,377     2,589     2,568     2,181   1,155     10,870
            Total       5,655     7,226     5,409     5,411   2,460     26,161
        Table 4




                                              18
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

Chart 2 (below) indicates how long the DOR items have been unresolved:


                                         DOR Aging

             >10 years    57

            5-10 years         776

             3-5 years               2,305

             2-3 years                   3,098

             1-2 years                                          9,055

              <1 years                                                  10,870


          Chart 2

Recommendation

We recommend NCUA management:

   3. Ensure regional staff takes stronger supervisory actions when a credit union fails
      to correct DOR items.
Management Response

Management agreed with the recommendation and has taken corrective action.
Specifically, management believes NCUA has taken stronger supervisory actions since
the economic downturn in 2008 by increasing enforcement actions 175 percent from
December 31, 2008 through June 30, 2011. In addition, management plans to take
additional corrective action as follows. Management stated the current draft of the
NSPM requires more stringent administrative actions when credit unions do not resolve
the DORs with the agreed timeframe, and when administrative action is not taken, the
examiner must document the reason for not taking more stringent action. Management
further stated they would continue to stress the importance of taking stronger
supervisory actions as needed to ensure the safety of the National Credit Union Share
Insurance Fund.

OIG Response

We concur with the actions taken to date and the actions planned by management.




                                              19
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

We are also making the following suggestion to NCUA management:

   1. Consider establishing specific time limits for examiners to resolve and close DOR
      items to help ensure DORs do not remain open indefinitely.

Management Response

NCUA management does not believe it is feasible to establish specific time limits for
examiners to resolve and close DOR items given the innumerable circumstances
examiners must consider when determining the appropriate needed action.

OIG Response

The OIG defers to management‘s decision to continue to allow examiners to exercise
judgment when determining the most effective corrective action for issues identified
during the examination. However, we believe management should continue to look for
ways to reduce the time to close DORs during any future reviews or changes to the
program.




                                              20
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11

Resolved DOR Results

We determined that as of December 31, 2010, examiners helped reduce identified
areas of unacceptable risk by resolving a significant number of DOR items since 2005.
Specifically, examiners recorded over 106,000 resolved DOR items in the DOR
database. Moreover, examiners resolved over 91,000 (86 percent) of the DORs in two
years or less. Table 5 (below) is a breakdown of DORs resolution by time period:


                                                                    Total
                                           Region
             Age                                                  Resolved
                         1      2     3       4     5             DOR Items
         >10 years       12     30    49      17    13               121
         5-10 years     111    235   228     131    30               735
          3-5 years     963   1,203  714    1,050  340              4,270
          2-3 years    2,335 2,539 1,877 2,457     733              9,941
          1-2 years    9,798 9,305 8,840 12,101 4,540              44,584
          <1 years     8,257 10,128 11,025 11,892 5,225            46,527
                Total 21,476 23,440 22,733 27,648 10,881           106,178
        Table 5

The overall average time to resolve these DOR items was 13 months. As noted in
Table 6 below:


                                                Average Time
                                  Region
                                                 to Resolve
                                    1               14.21
                                    2               14.20
                                    3               13.10
                                    4               12.92
                                    5               12.23
                           Overall Average Time     13.33
                        Table 6




                                              21
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11


Appendix A: NCUA Management Response




                                              22
Review of NCUA’s Document of Resolution Follow-Up Process
OIG-11-11




                                              23
